No. 20-1545

 

 

IN THE

Supreme Court of the United States

TCL COMMUNICATION TECHNOLOGY HOLDINGS,
LIMITED, TCT MoBILe LIMITED, TCT MOBILE (US)
INC., PETITIONERS

v
Gobo KalsHa IP BRIDGE 1

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF FOR GODO KAISHA IP BRIDGE 1 IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,762 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 24, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
